                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION
Office of Inspector General—Office of Audit




                                              WESTCHESTER-PUTNAM COUNTIES
                                              CONSORTIUM FOR WORKER EDUCATION
                                              AND TRAINING, INC.
                                              EARMARK GRANT




                                                                    Date Issued: September 29, 2006
                                                                    Report Number: 02-06-204-03-390
Department of Labor                                SEPTEMBER 2006
Office of Inspector General
Office of Audit                                    WESTCHESTER-PUTNAM COUNTIES
                                                   CONSORTIUM FOR WORKER
                                                   EDUCATION AND TRAINING, INC.

BRIEFLY…                                           EARMARK GRANT


                                                   WHAT OIG FOUND
Highlights of Report Number: 02-06-204-03-390,
to the Assistant Secretary for Employment and      1. WP-CWE charged $127,357 of costs to the
Training                                              grant that were unallowable and unallocable.
                                                      Specifically, $91,939 in administrative costs
WHY READ THE REPORT                                   exceeded grant limits; $24,667 in legal
                                                      services costs were unallowable or not
Westchester-Putnam Counties Consortium for            adequately documented; and $10,751 in
Worker Education, Inc. (WP-CWE) was                   common costs were over allocated to the
established as a partnership between the              grant.
Building and Construction Trade Council of
Westchester-Putnam Counties AFL-CIO and the        2. Thirteen of 47 reported adult participants
Construction Industry Council, an employer’s          were not eligible as they did not meet
association that represents building contractors      specific eligibility requirements, such as
in the Lower Hudson Valley Region.                    having a high school diploma/GED and/or
                                                      being identified with specific target groups.
In 2002, WP-CWE received a $500,000 earmark           As a result, we question training and stipend
grant (agreement number AF-12732-03-60) to            payments totaling $36,294.
provide building trades pre-apprenticeship
training to 60 youth and 45 adult participants     3. WP-CWE agreed to train 60 youth and 45
residing in Westchester and Putnam Counties,          adult participants. WP-CWE achieved grant
New York.                                             goals for youth training. However, after
                                                      restatement to exclude ineligible adult
WHY OIG DID THE AUDIT                                 participants, WP-CWE actually trained 34
                                                      eligible adult participants and did not
The purpose of our audit was to determine the         achieve grant goals for adult training.
following:
                                                   WHAT OIG RECOMMENDED
1. Were reported costs reasonable, allowable,
   and allocable to the grant under Federal        The OIG recommended the Assistant Secretary
   requirements?                                   for Employment and Training recover $163,651
2. Was pre-apprenticeship training provided to     in questioned costs from WP-CWE, and conduct
   eligible residents of Westchester and           monitoring of ongoing and future DOL funded
   Putnam Counties?                                employment and training projects to assist WP-
                                                   CWE in: complying with Federal requirements
3. Were performance results measured,              for grant costs; consistently following eligibility
   reported and achieved.                          requirements; and achieving performance goals.

READ THE FULL REPORT                               In its response to the draft report, WP-CWE
                                                   agreed with $5,910 of questioned costs for
To view the report, including the scope,           unallowable legal services costs. WP-CWE
methodology and agency response, go to:            disagreed with the report’s other findings and
                                                   recommendations.
http://www.oig.dol.gov/public/reports/
oa/2006/02-06-204-03-390.pdf
                                                                                                  WP-CWE Earmark Grant



Table of Contents
                                                                                                           PAGE
EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 5

     1. Questioned Costs of $127,357 for Excess Administrative Costs,
        Undocumented Costs, and Unreasonable Allocation of Costs ...................... 6

     2. Grantee Provided Pre-Apprenticeship Training, but 28 Percent of
        Adult Participants Were Not Eligible ................................................................ 9

     3. WP-CWE Measured and Reported Performance Data, but Did Not
        Achieve Grant Goals ........................................................................................ 11


EXHIBIT ........................................................................................................................ 13

Schedule of Claimed, Sampled, and Questioned Costs .......................................... 15


APPENDICES ............................................................................................................... 17

Background ................................................................................................................. 19

Objectives, Scope, Methodology, and Criteria ......................................................... 21

Acronyms and Abbreviations .................................................................................... 25

Grantee Response to Draft Report ............................................................................ 27




U.S. Department of Labor—Office of Inspector General                                                                             1
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant




             PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                             U.S. Department of Labor – Office of Inspector General
                                                  Report Number: 02-06-204-03-390
                                                                                       WP-CWE Earmark Grant



Executive Summary
This report summarizes the results of our performance audit of a $500,000 earmark1
grant awarded to Westchester-Putnam Counties Consortium for Worker Education and
Training, Inc. (WP-CWE), for the period October 7, 2002, through November 30, 2003.
The grant required WP-CWE to provide pre-apprenticeship training in the building
trades to 60 youth and 45 adult participants who were residents of Westchester and
Putnam Counties, New York.

The audit objectives were to answer the following:

    1. Were reported costs reasonable, allowable, and allocable to the grant under
       Federal requirements?

    2. Was pre-apprenticeship training provided to eligible residents of Westchester and
       Putnam Counties?

    3. Were performance results measured, reported and achieved?

Results

In total, we question $163,651 of grant costs claimed by WP-CWE. We questioned
$127,357 because claimed costs were not reasonable, allowable and allocable to the
grant. We questioned an additional $36,294 because 28 percent of adult participants
were not eligible. Finally, the grantee did not meet its adult performance goals.

1. WP-CWE charged $127,357 of costs to the grant that were unallowable and
   unallocable. Specifically, $91,939 in administrative costs exceeded grant limits;
   $24,667 in legal services costs were unallowable or not adequately documented;
   and $10,751 in common costs were over allocated to the grant.

2. Thirteen of 47 reported adult participants were not eligible as they did not meet
   specific eligibility requirements, such as having a high school diploma/GED and/or
   being identified with specific target groups. As a result, we question training and
   stipend payments totaling $36,294.

3. WP-CWE agreed to train 60 youth and 45 adult participants. It reported that
   63 youth and 47 adult participants were trained. WP-CWE achieved grant goals for
   youth training. However, after restatement to exclude ineligible adult participants,
   WP-CWE actually trained 34 eligible adult participants and did not achieve grant
   goals for adult training.



1
 An earmark is a set-aside from an appropriation to be used for a specific purpose, which cannot be otherwise used
unless provided for under the appropriation.

U.S. Department of Labor—Office of Inspector General                                                                 3
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant


Recommendations

We recommend the Assistant Secretary for Employment and Training recover $163,651
in questioned costs from WP-CWE, and conduct monitoring of ongoing and future DOL
funded employment and training projects to assist WP-CWE in:

•   Complying with Federal requirements for grant costs.

•   Consistently following eligibility requirements.

•   Achieving performance goals.

Agency Response

In its response to the draft report, WP-CWE agreed with $5,910 of questioned costs for
unallowable legal services costs. WP-CWE did not agree with the findings related to
excessive administrative costs or ineligible participants. WP-CWE’s response did not
address our findings related to lack of documentation for legal services costs,
overallocated common costs, or not achieving grant goals.

The WP-CWE’s response to the draft report is included in Appendix D.

OIG Conclusion

We have considered WP-CWE’s response to the draft report. No additional information
was provided that materially affects the report. Therefore, the report findings and
recommendations remain unchanged. The recommendations will be resolved during
DOL’s formal audit resolution process.




4                                        U.S. Department of Labor – Office of Inspector General
                                                             Report Number: 02-06-204-03-390
                                                                                       WP-CWE Earmark Grant


U.S. Department of Labor                                 Office of Inspector General
                                                         Washington, DC 20210




                               Assistant Inspector General’s Report




Ms. Emily Stover DeRocco
Assistant Secretary for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210


We conducted a performance audit of the $500,000 earmark2 grant number
AF-12732-03-60 awarded to Westchester-Putnam Counties Consortium for Worker
Education and Training, Inc. (WP-CWE), for the period October 7, 2002, through
November 30, 2003. The grant required WP-CWE to provide building trades pre-
apprenticeship training to 60 youth and 45 adult participants residing in Westchester
and Putnam Counties, New York.

The audit objectives were to answer the following:

    1. Were reported costs reasonable, allowable, and allocable to the grant under
       Federal requirements?

    2. Was pre-apprenticeship training provided to eligible residents of Westchester and
       Putnam Counties?

    3. Were performance results measured, reported and achieved?

We conducted our audit in accordance with Generally Accepted Government Auditing
Standards for performance audits. Our audit objectives, scope, methodology and
criteria are detailed in Appendix B.




2
 An earmark is a set-aside from an appropriation to be used for a specific purpose, which cannot be otherwise used
unless provided for under the appropriation.

U.S. Department of Labor—Office of Inspector General                                                                 5
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant


Objective 1: Were Reported Costs Reasonable, Allowable, and Allocable to the
Grant under Federal Requirements?

Results and Findings - Questioned Costs of $127,357 for Excess Administrative
Costs, Undocumented Costs, and Unreasonable Allocation of Costs

Office of Management and Budget (OMB) Circular A-122 Cost Principles for Non-Profit
Organizations, Attachment A, Paragraph A.2 states that to be allowable, costs must be
reasonable and allocable; conform to grant limitations; and be adequately documented.
WP-CWE reported $500,000 in grant costs of which $127,357 is questioned as
unallowable and unallocable. Specifically, $91,939 of administrative costs exceeded
grant limits; $24,667 in legal services costs were unallowable or not adequately
documented; and $10,751 in common costs were over allocated to the grant.

a. Excess Administrative Costs ($91,939 questioned)
The grant limits administrative costs to 10 percent of the award, or up to 15 percent if
justified and approved by the grant officer. In addition, ETA’s Federal Project Officer
stated that there was no modification to the grant to approve administrative costs over
the 10 percent limit. Workforce Investment Act (WIA) regulations at Part 20 Section
667.220(c) of the Code of Federal Regulations (CFR) classifies subrecipient costs
unless awarded solely for the performance of administrative functions as program cost
and therefore not subject to administrative cost limitations. 20 CFR 660.300 defines a
subrecipient as: “. . . an entity to which a subgrant is awarded and which is accountable
to the recipient . . . for the use of the funds. . . .”

WP-CWE claimed to have a recipient to subrecipient relationship with its program and
financial manager, the National Association on Drug Abuse Problems (NADAP3);
however, we concluded that no such relationship existed. NADAP functioned as the
prime grantee and was not held accountable to WP-CWE; therefore, NADAP did not
meet the definition of a subrecipient under WIA. Further, there was no documentation
that WP-CWE ever monitored NADAP’s grant operations. Though separate legal
entities, there was little operational distinction between NADAP and WP-CWE. NADAP
developed the earmark grant proposal and provided WP-CWE’s administrative
infrastructure for the earmark grant and overall organization. Furthermore, NADAP
performed grantee administrative functions as follows:

    •    Contracted jointly for its own and WP-CWE’s single audit and legal services.
    •    Drew down grant funds into a NADAP account for WP-CWE programs.
    •    Certified financial reports to ETA.
    •    Filed WP-CWE tax forms.
    •    Added WP-CWE directors’ into NADAP’s personnel system, approved their
         timesheets as their supervisors, and paid them through NADAP’s payroll.



3
 In 2004, NADAP was selected as the WIA One-Stop Center Operator and financial manager for the Workforce Investment Board
(WIB) in Yonkers, NY, which receives approximately $1.6 million in WIA formula funding annually.


6                                                     U.S. Department of Labor – Office of Inspector General
                                                                          Report Number: 02-06-204-03-390
                                                                                       WP-CWE Earmark Grant


       •    Reimbursed itself for costs without approval from WP-CWE.
       •    Maintained custody of all financial and tax records for WP-CWE.

According to the NADAP Financial Director, the only administrative costs incurred were
$27,291 for WP-CWE salaries and fringe benefits. As NADAP was in essence the
prime grantee, additional grant costs of $141,343 classified by NADAP as program-
related contractual costs, met WIA’s definition of administrative costs under 20 CFR
667.220(b) and should have been included when determining compliance with grant
limitations. As a result, total administrative costs under the grant were $168,634. After
considering other questioned costs, WP-CWE incurred $91,939 for administration in
excess of the grant limit. Questioned costs were computed as follows:

                 Total Administrative Costs per OIG Restatement                         $168,634
                 Administrative Cost Cap ($500,000 x 10%)                                - 50,000
                 Excess Administrative Costs Over Cap                                   $118,634
                 Questioned Administrative Costs (Objective 1b and 1c)                   - 26,6954
                 Questioned Costs in Excess of Limitation                                $91,939


b. Unallowable or Inadequately Documented Legal Services Costs ($24,667
   questioned)

For the grant, WP-CWE paid two law firms $24,667 for legal services costs which were
unallowable or inadequately documented.

OMB Circular A-122, Attachment B, Paragraph 39 states:

            a. Costs of professional and consultant services rendered by persons who
            are members of a particular profession or possess a special skill, and who
            are not officers or employees of the organization, are allowable. . . .

            b. In determining the allowability of costs…the following factors are
            relevant. . . .

                 (2) The necessity of contracting for the service, considering the
                 organization's capability in the particular area. . . .

                 (8) Adequacy of the contractual agreement for the service (e.g.,
                 description of the service, estimate of time required, rate of
                 compensation, and termination provisions). . . .

       •    NADAP entered into a new agreement with a law firm owned by an officer of WP-
            CWE’s Board of Directors and charged $5,910 for retainer fees to the grant. The
            costs are unallowable because the law firm is owned by an officer of WP-CWE,
            the agreement did not identify the types of legal services to be available or

4
    Consist of legal fees of $24,667 and audit fees of $2,028 ($5,070 x 40 percent).


U.S. Department of Labor—Office of Inspector General                                                      7
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant


        provided, and NADAP did not provide any rationale for why another law firm was
        needed for the grant.

OMB Circular A-122, Attachment A, Paragraph A.2g states, to be allowable costs must
be adequately documented.

    •   The other law firm had an existing contract with NADAP to provide legal services
        for all its programs at an hourly billable rate. The contract was extended to
        include the WP-CWE grant and NADAP charged $18,757 of the firm’s charges to
        the grant. However, the costs were not adequately documented. NADAP
        provided partial detail for some bills, but some detail information was unreadable
        and descriptions of some services were blacked out. Also, bills did not agree
        with recorded grant costs.

c. Overallocated Common Costs ($10,751 questioned)

OMB Circular A-122, Attachment A, Paragraph A.4(a) states: “A cost is allocable to a
particular cost objective, such as a grant, contract, project, service, or other activity, in
accordance with the relative benefits received. . . .” WP-CWE operated three programs,
but charged the earmark grant 100 percent of office rent ($18,383), leased office
equipment ($3,426) and audit fees ($5,070). NADAP representatives stated that these
costs were charged to the earmark grant because they were necessary and the grant
had available funds. However, this was not a reasonable allocation of costs, as other
WP-CWE activities also benefited and accounted for 40 percent of activities reported.
Therefore, $10,751 (40 percent of $26,879 in common costs) should have been
allocated to other WP-CWE activities.

Recommendations:

We recommend that the Assistant Secretary of Employment and Training:

1. Recover questioned costs of $127,357.

2. Conduct monitoring of ongoing and future DOL funded employment and training
   projects to assist WP-CWE in complying with Federal requirements for grant costs.

3. Conduct monitoring and provide technical assistance for NADAP’s administration of
   ongoing DOL programs to ensure compliance with applicable Federal requirements.
   This is especially important since NADAP is currently the One-Stop Center Operator
   and fiscal agent for Yonkers WIB, and receives an estimated $1.6 million in WIA
   formula funds annually.

Grantee Response

In its response to the draft report, WP-CWE agreed with $5,910 of questioned costs for
unallowable legal services costs. WP-CWE did not agree with the findings related to



8                                        U.S. Department of Labor – Office of Inspector General
                                                             Report Number: 02-06-204-03-390
                                                                    WP-CWE Earmark Grant


excessive administrative costs. WP-CWE’s response did not address our findings
related to lack of documentation for legal services costs or overallocated common costs.

WP-CWE’s response to the draft report is included in Appendix D.

OIG’s Conclusion

We have considered WP-CWE’s response to the draft report. No additional information
was provided that materially affects the above findings and recommendations;
therefore, the findings and recommendations remain unchanged. The
recommendations will be resolved during DOL’s formal audit resolution process.


Objective 2: Was Pre-Apprenticeship Training Provided to Eligible Residents of
Westchester and Putnam Counties?

Results and Finding - Grantee Provided Pre-Apprenticeship Training, but
28 Percent of Adult Participants Were Not Eligible

WP-CWE agreed to provide pre-apprenticeship training to 60 youth and 45 adult
participants who were targeted residents of Westchester and Putnam Counties. For the
youth program, WP-CWE developed a 12-hour program for career awareness and pre-
apprenticeship training which was presented to 63 students at Roosevelt and Saunders
High Schools, and Southern Westchester Board of Cooperative Educational Services.

For the adult program, WP-CWE developed curricula and provided pre-apprenticeship
training to 47 adult participants as carpenters, sheet metal workers, and operating
engineers. Training was held at the unions’ apprenticeship training facilities for Empire
State Carpenters, Sheet Metal Workers Local Union 38, and the International Union of
Operating Engineers Local 30. The program was coordinated with Local Workforce
Investment Boards and local unions. However, 13 of 47 adult participants were not
eligible. Therefore, we question $36,294 of $132,487 in adult training costs and
stipends for ineligible adult participants.

   Ineligible Adult Participants ($36,294 questioned)

Under the terms of the grant agreement, to be eligible, an adult participant must:

   •   Be a resident of Westchester or Putnam County;
   •   Be 18 years of age or older;
   •   Have a high school diploma or General Equivalency Diploma (GED);
   •   Have access to reliable transportation; and
   •   Be from one of the following target groups -- unemployed, dislocated workers,
       minorities, welfare recipients, or recovering substance abusers.

WP-CWE documented each participant’s age, high school diploma/GED attainment,
and access to transportation. WP-CWE identified participants who were unemployed

U.S. Department of Labor—Office of Inspector General                                        9
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant


but did not identify any participants as dislocated workers, minorities, welfare recipients
or recovering substance abusers. Of the 47 participants reported, 13 were not eligible
because they: (1) did not have proof of high school diploma or GED attainment and/or
(2) were employed but not identified with other target groups. The project director
explained that a diploma/GED was included as a grant requirement due to the technical
nature of some training, primarily for Operating Engineers. WP-CWE relaxed this
requirement because the Sheet Metal Workers Union does not require it. The project
director did not explain why the proof of diploma or GED requirement was relaxed for
Operating Engineers or Carpenters training, or why she enrolled employed individuals
without determining if they were dislocated workers, minorities, welfare recipients, or
recovering substance abusers. As a result, WP-CWE spent $36,294 for ineligible
participants, as detailed below:

                                                Number             Number               Grant               Costs5
            Training Type                       Trained           Ineligible            Costs             Questioned
        Carpenters                                17                    2               $13,892              $1,634
        Sheet Metal Workers                       13                    6                32,980              15,222
        Operating Engineers                       17                    5                44,770              13,168
          Subtotal Training                       47                   13               $91,642             $30,024
        Stipends                                                                         40,845               6,270
        Total                                                                          $132,487             $36,294


Recommendations:

We recommend the Assistant Secretary for Employment and Training:

4. Recover $36,294 in funds expended for ineligible adult participants.

5. Conduct monitoring of ongoing and future DOL funded employment and training
   projects to assist WP-CWE in consistently following eligibility requirements.

Grantee Response

In its response to the draft report, WP-CWE asserted that all participants were eligible
under the grant via attestations and declarations made during the application process.
As for the target groups, minority status of each participant was determined through a
visual evaluation and indirect inquiry into their ethnic background. One participant was
accepted because he was underemployed.




5
 Questioned training costs are based on average training costs for each type of training, multiplied by the number of ineligible
participants. Questioned stipend costs are the actual stipends paid to ineligible participants.


10                                                         U.S. Department of Labor – Office of Inspector General
                                                                               Report Number: 02-06-204-03-390
                                                                       WP-CWE Earmark Grant


OIG’s Conclusion

We have considered WP-CWE’s response to the draft report. No additional information
was provided that materially affects the above finding and recommendations; therefore,
the finding and recommendations remain unchanged. The recommendations will be
resolved during DOL’s formal audit resolution process.


Objective 3: Were Performance Results Measured, Reported and Achieved?

Results and Finding – WP-CWE Measured and Reported Performance Data, but
Did Not Achieve Grant Goals

The grant agreement required WP-CWE to train 60 youth and 45 adult participants.
WP-CWE reported that it trained 63 youth and 47 adults. WP-CWE achieved grant
goals for youth training. However, after restatement of performance results to exclude
ineligible adult participants, WP-CWE actually trained 34 eligible adult participants and
did not achieve grant goals for adult training.

Further, eligible participants achieved better training results than ineligible participants.
Of the 34 eligible adult participants who received training, 79 percent completed the
training and 53 percent joined the union. Of the 13 ineligible adult participants, 46
percent completed training and 31 percent joined the union.

Recommendation:

6. We recommend the Assistant Secretary for Employment and Training conduct
   monitoring of ongoing and future DOL funded employment and training projects to
   assist WP-CWE in achieving performance goals.

Grantee Response

WP-CWE’s response to the draft report did not address this finding and
recommendation.

OIG’s Conclusion

No additional information was provided; therefore, the finding and recommendation
remain unchanged. The recommendation will be resolved during DOL’s formal audit
resolution process.



Elliot P. Lewis
June 29, 2005




U.S. Department of Labor—Office of Inspector General                                        11
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant




                PAGE HAS BEEN INTENTIONALLY LEFT BLANK




12                             U.S. Department of Labor – Office of Inspector General
                                                   Report Number: 02-06-204-03-390
                                                       WP-CWE Earmark Grant




Exhibit




U.S. Department of Labor—Office of Inspector General                     13
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant




                PAGE HAS BEEN INTENTIONALLY LEFT BLANK




14                             U.S. Department of Labor – Office of Inspector General
                                                   Report Number: 02-06-204-03-390
                                                                  WP-CWE Earmark Grant


                                                                           EXHIBIT A

Westchester-Putnam Counties Consortium for Worker Education and Training, Inc.
            Schedule of Claimed, Sampled and Questioned Costs
         For the Period October 7, 2002, through November 30, 2003




                 Grant Budget                  Closeout               Questioned
                   Line Item                    Report     Sampled      Costs

   Salaries                                     $24,995     $12,998            $0

   Fringe Benefits                                 2,296       777              0

   Contractual                                  435,464     435,369

     NADAP Admin. Costs (Finding 1a)                                       91,939

     Legal Services (Finding 1b)                                           24,667

     Common Costs (Finding 1c)                                             10,751

     Adult Training Contracts (Finding 2)                                  30,024

   Stipends (Finding 2)                          37,245      37,245         6,270

   Total Costs                                 $500,000    $486,389      $163,651




U.S. Department of Labor—Office of Inspector General                                15
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant




                PAGE HAS BEEN INTENTIONALLY LEFT BLANK




16                             U.S. Department of Labor – Office of Inspector General
                                                   Report Number: 02-06-204-03-390
                                                       WP-CWE Earmark Grant




Appendices




U.S. Department of Labor—Office of Inspector General                     17
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant




                PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                             U.S. Department of Labor – Office of Inspector General
                                                   Report Number: 02-06-204-03-390
                                                                 WP-CWE Earmark Grant


                                                                         APPENDIX A

BACKGROUND

WP-CWE is a not-for-profit corporation that was incorporated in 1998. WP-CWE was
established as a partnership between the Building and Construction Trade Council of
Westchester-Putnam Counties AFL-CIO and the Construction Industry Council, an
employer’s association that represents building contractors in the Lower Hudson Valley
Region.

On October 16, 2002, ETA awarded WP-CWE a $500,000 earmark grant, number
AF-12732-03-60, from funds set aside in the Fiscal Year 2002 appropriation (Public Law
107-116, enacted January 10, 2002). An earmark is a set-aside from an appropriation
to be used for a specific purpose, which cannot be otherwise used unless provided for
under the appropriation. Congress designated this set-aside for WP-CWE to provide
outreach and pre-apprenticeship training for the construction industry. The period of
performance was October 7, 2002, through November 30, 2003. The grant required
WP-CWE to provide building trades pre-apprenticeship training to 60 youth and 45 adult
participants residing in Westchester and Putnam Counties, New York.

On April 1, 2002, prior to signing and receiving the grant from ETA, WP-CWE executed
an agreement with NADAP, a private nonprofit organization founded in 1971 by a
coalition of business, labor unions and social service professionals. For the grant,
NADAP agreed to be responsible for performing all aspects of the earmark grant.




U.S. Department of Labor—Office of Inspector General                                 19
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant




                PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                             U.S. Department of Labor – Office of Inspector General
                                                   Report Number: 02-06-204-03-390
                                                                    WP-CWE Earmark Grant


                                                                            APPENDIX B

OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

Objectives

The Office of Inspector General conducted an audit of the $500,000 earmark grant
number AF-12732-03-60 awarded to WP-CWE for the period October 7, 2002, through
November 30, 2003. The audit objectives were to answer the following:

   1. Were reported costs reasonable, allowable, and allocable to the grant under
      Federal requirements?

   2. Was pre-apprenticeship training provided to eligible residents of Westchester and
      Putnam Counties?

   3. Were performance results measured, reported and achieved?

Scope

Our performance audit was conducted in accordance with Generally Accepted
Government Auditing Standards for performance audits, and included such tests as we
considered necessary to satisfy the audit objectives.

A performance audit includes an understanding of internal controls considered
significant to the audit objectives and testing compliance with significant laws,
regulations, and other compliance requirements. In order to plan our performance
audit, we considered whether internal controls significant to the audit were properly
designed and placed in operation.

For the period October 7, 2002, through November 30, 2003, WP-CWE reported 47
adult participants received training, 63 youth participants completed training, and total
grant costs incurred of $500,000. We sampled 100 percent of adult participants, 16
percent of youth participants, and 97 percent of costs. We conducted the audit at WP-
CWE program offices in Yonkers, New York, and NADAP offices in New York, New
York. Fieldwork was conducted from March 16, 2005, through June 29, 2005. The exit
conference was held on August 25, 2006.

Methodology

We obtained an understanding of internal controls through inquiries with appropriate
personnel, review of policies and procedures manuals, observations of NADAP
operations, and inspection of relevant documentation. The nature and extent of our
testing was based on auditors’ judgment.




U.S. Department of Labor—Office of Inspector General                                    21
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant


We audited claimed costs as reported in the grantee’s financial status report. We
selected stratified random samples using a 95 percent confidence level and +/- 5
percent sampling precision of audit attributes. In total, we sampled $486,389 of
reported costs, consisting of $12,998 of WP-CWE salaries, $777 of associated fringe
benefits, $37,245 of adult participant stipends, and $435,369 of contractual costs.6 We
examined general ledger journals and supporting documentation, such as canceled
checks, vouchers, invoices, and contracts.

For sampled contractual costs of $435,369, WP-CWE’s support documentation
consisted of journal entries to reimburse NADAP for grant costs. A cost summary from
NADAP showed personnel costs of $151,523, non-personnel costs of $225,803, and
overhead of $58,043. For NADAP personnel costs, we applied analytical procedures
and interviewed staff to verify the reasonableness and allocability of costs. For non-
personnel costs, we selected a judgmental sample of $215,516 in costs, and examined
NADAP’s general ledger journals, canceled checks, vouchers, invoices, and contracts.

To determine compliance with grant eligibility requirements and achievement of
performance goals, we selected random samples of participants using a confidence
level of 90 percent and +/- 10 percent sampling precision. After testing 24, we
expanded samples to 100 percent of adults participants enrolled in training and
discontinued further tests of youth participants. In total, we sampled 60 of 1297
participants enrolled in training, and reviewed participant files for eligibility, training
received, training completion, and outcomes received.

                        Training Type or Location                         Universe           Sampled
                       Carpenters                                              17                 17
                       Sheet Metal Work                                        13                 13
                       Operating Engineers                                     17                 17
                        Total Adults                                           47                 47

                       Saunders High School                                    19                  3
                       Roosevelt High School                                   21                  3
                       Southern Westchester BOCES                              42                  7
                        Total Youth                                            82                 13

                       Total Participants                                    129                  60




6
  There were immaterial differences between costs reported on the closeout report and cost detail from the general ledger. Salaries
and fringe benefits were underreported by $94 and contractual was over-reported by $95, for net over-reported costs of $1. Cost
samples were drawn from general ledger detail.
7
  For sampling, total participants (129) were based on rosters of 47 adults who were enrolled and received training, and 82 youth
enrolled in training. WP-CWE reported 110 participants: 47 adults who received training, and 63 youth who completed training.



22                                                        U.S. Department of Labor – Office of Inspector General
                                                                              Report Number: 02-06-204-03-390
                                                                 WP-CWE Earmark Grant


Criteria

The audit was performed using the executed grant agreement, modifications, and the
following criteria:

   •   WIA, Public Law 105-220 and 20 CFR 652 et al.

   •   OMB Circular A–122, “Cost Principles for Non-Profit Organizations”

   •   29 CFR 95, “Uniform Administrative Requirements for Federal Grants and
       Agreements Awarded to Institutions of Higher Education, Hospitals, and Other
       Non-profit Organizations”




U.S. Department of Labor—Office of Inspector General                                  23
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant




                PAGE HAS BEEN INTENTIONALLY LEFT BLANK




24                             U.S. Department of Labor – Office of Inspector General
                                                   Report Number: 02-06-204-03-390
                                                                 WP-CWE Earmark Grant


                                                                         APPENDIX C

ACRONYMS AND ABBREVIATIONS

AFL-CIO         American Federation of Labor and Congress of Industrial Organizations

CFR             Code of Federal Regulations

DOL             Department of Labor

ETA             Employment and Training Administration

NADAP           National Association on Drug Abuse Problems, Inc.

OMB             Office of Management and Budget

WIA             Workforce Investment Act

WIB             Workforce Investment Board

WP-CWE          Westchester-Putnam Counties Consortium for Worker Education and
                Training, Inc.




U.S. Department of Labor—Office of Inspector General                                25
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant




                PAGE HAS BEEN INTENTIONALLY LEFT BLANK




26                             U.S. Department of Labor – Office of Inspector General
                                                   Report Number: 02-06-204-03-390
                                                       WP-CWE Earmark Grant


                                                              APPENDIX D

GRANTEE RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                     27
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant




28                     U.S. Department of Labor – Office of Inspector General
                                           Report Number: 02-06-204-03-390
                                                       WP-CWE Earmark Grant




U.S. Department of Labor—Office of Inspector General                     29
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant




30                     U.S. Department of Labor – Office of Inspector General
                                           Report Number: 02-06-204-03-390
                                                       WP-CWE Earmark Grant




U.S. Department of Labor—Office of Inspector General                     31
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant




32                     U.S. Department of Labor – Office of Inspector General
                                           Report Number: 02-06-204-03-390
                                                       WP-CWE Earmark Grant




U.S. Department of Labor—Office of Inspector General                     33
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant




34                     U.S. Department of Labor – Office of Inspector General
                                           Report Number: 02-06-204-03-390
                                                       WP-CWE Earmark Grant




U.S. Department of Labor—Office of Inspector General                     35
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant




NOTE: THIS PAGE OF W-P CWE’S RESPONSE TO THE DRAFT REPORT
CONTAINS PERSONAL IDENTIFYING INFORMATION PROTECTED BY THE
PRIVACY ACT AND HAS BEEN OMITTED FROM THE FINAL REPORT




36                          U.S. Department of Labor – Office of Inspector General
                                                Report Number: 02-06-204-03-390
                                                       WP-CWE Earmark Grant




U.S. Department of Labor—Office of Inspector General                     37
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant




38                     U.S. Department of Labor – Office of Inspector General
                                           Report Number: 02-06-204-03-390
                                                       WP-CWE Earmark Grant




U.S. Department of Labor—Office of Inspector General                     39
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant




40                     U.S. Department of Labor – Office of Inspector General
                                           Report Number: 02-06-204-03-390
                                                       WP-CWE Earmark Grant




U.S. Department of Labor—Office of Inspector General                     41
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant




42                     U.S. Department of Labor – Office of Inspector General
                                           Report Number: 02-06-204-03-390
                                                       WP-CWE Earmark Grant




U.S. Department of Labor—Office of Inspector General                     43
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant




44                     U.S. Department of Labor – Office of Inspector General
                                           Report Number: 02-06-204-03-390
                                                       WP-CWE Earmark Grant




U.S. Department of Labor—Office of Inspector General                     45
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant




46                     U.S. Department of Labor – Office of Inspector General
                                           Report Number: 02-06-204-03-390
                                                       WP-CWE Earmark Grant




U.S. Department of Labor—Office of Inspector General                     47
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant




48                     U.S. Department of Labor – Office of Inspector General
                                           Report Number: 02-06-204-03-390
                                                       WP-CWE Earmark Grant




U.S. Department of Labor—Office of Inspector General                     49
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant




50                     U.S. Department of Labor – Office of Inspector General
                                           Report Number: 02-06-204-03-390
                                                       WP-CWE Earmark Grant




U.S. Department of Labor—Office of Inspector General                     51
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant




52                     U.S. Department of Labor – Office of Inspector General
                                           Report Number: 02-06-204-03-390
                                                       WP-CWE Earmark Grant




U.S. Department of Labor—Office of Inspector General                     53
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant




54                     U.S. Department of Labor – Office of Inspector General
                                           Report Number: 02-06-204-03-390
                                                       WP-CWE Earmark Grant




U.S. Department of Labor—Office of Inspector General                     55
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant




56                     U.S. Department of Labor – Office of Inspector General
                                           Report Number: 02-06-204-03-390
                                                       WP-CWE Earmark Grant




U.S. Department of Labor—Office of Inspector General                     57
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant




58                     U.S. Department of Labor – Office of Inspector General
                                           Report Number: 02-06-204-03-390
                                                       WP-CWE Earmark Grant




U.S. Department of Labor—Office of Inspector General                     59
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant




60                     U.S. Department of Labor – Office of Inspector General
                                           Report Number: 02-06-204-03-390
                                                       WP-CWE Earmark Grant




U.S. Department of Labor—Office of Inspector General                     61
Report Number: 02-06-204-03-390
WP-CWE Earmark Grant




62                     U.S. Department of Labor – Office of Inspector General
                                           Report Number: 02-06-204-03-390
                                                       WP-CWE Earmark Grant




NOTE: ATTACHMENT D OF W-P CWE’S RESPONSE TO THE DRAFT REPORT
CONTAINS PERSONAL IDENTIFYING INFORMATION PROTECTED BY THE
PRIVACY ACT AND HAS BEEN OMITTED FROM THE FINAL REPORT




U.S. Department of Labor—Office of Inspector General                     63
Report Number: 02-06-204-03-390
